                             CLOSEOUT FOR M-93080041




                                                      sounded very similar to his own.

        The complainant had requested and received a copy of the subject's NSF award through
the Freedom of Ixlformation Act. In his discussions with the program director, the complainant
indicated that after reviewing the subject's award he had decided that it was sufficiently different
from his work to consider the ideas proposed as separate from his own. However, he informed
the program director that he was still concerned about possible similarities between his and some
of the subject's computer software ideas.

        OIG contacted the complainant to request additional information to clarify and support
his allegation. He informed OIG that he had elected to follow procedures at his institution that
included notifying the vice president of research. He said that he would keep us informed.

        The complainant failed to keep OIG informed. OIG contacted the vice president of
research at the institution. The vice president told us that he was unaware of any allegation
brought by the complainant and that he would check into it and let us know. After six months,
OIG wrote to the complainant requesting specific information with respect to the allegation. We
sent a copy of this letter to the vice president. We were informed by the vice president that his
inquiry into the complainant's allegation of intellectual theft concluded that there was no
substance to the allegation. He explained that this decision was based on the views expressed
by the complainant's research group that no misuse of information had occurred, and the fact
that the information of concern in the proposal had been presented at conferences as early as
1989 by members of the research group and therefore was in the public domain.

        Without more specific information about the allegation, OIG was unable to determine
whether or not the subject had properly cited the appropriate work from the complainant's
research group in his award. OIG concluded that, because of the institution's inquiry that found
no substance to the complainant's allegation, and because of the repeated failure on the
complainant's part to supply the necessary specific information to clarify and substantiate his
allegation, we were unable to justify further inquiry into this allegation, and OIG therefore
closed this case.

cc:    Senior Scientist, Deputy AIG-Oversight, AIG-Oversight, IG

                                           Page 1 of 1
